Office of Material Loss Reviews
Report No. MLR-10-033


Material Loss Review of Hillcrest Bank
Florida, Naples, Florida




                                     May 2010
                                       Executive Summary

                                       Material Loss Review of Hillcrest Bank Florida,
                                       Naples, Florida
                                                                                        Report No. MLR-10-033
                                                                                                     May 2010

Why We Did The Audit
On October 23, 2009, the Florida Office of Financial Regulation (OFR) closed Hillcrest Bank Florida
(Hillcrest), Naples, Florida and named the FDIC as receiver. On November 6, 2009 the FDIC notified the
OIG that Hillcrest’s total assets at closing were $91.9 million and that the estimated loss to the Deposit
Insurance Fund (DIF) was $44.7 million. As of April 27, 2010, the estimated loss to the DIF had
decreased to $31.4 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the
OIG conducted a material loss review.

The audit objectives were to (1) determine the causes of Hillcrest’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of the institution, including implementation of the
Prompt Corrective Action (PCA) provisions of section 38.


Background
Hillcrest was a de novo state-chartered nonmember bank that opened for business on August 16, 2006 in
Naples, Florida as a traditional full-service community bank. The bank’s primary market included Collier
and southern Lee counties. In addition to its main office, Hillcrest had a full-service branch in Bonita
Springs (north of Naples) and four limited service branches located in retirement communities in and
around its local area and also on the east coast of Florida. The bank had no holding company but was
affiliated with another out-of-state bank through common ownership of its two principal shareholders.


Audit Results
Causes of Failure and Material Loss

Hillcrest failed because it implemented a lending strategy in its first year of operation that resulted in loan
concentrations in commercial real estate (CRE), particularly acquisition, development, and construction
(ADC) lending, absent development of adequate risk management practices. The bank’s lending strategy
constituted a deviation from the bank’s original business plan, and this change was not submitted in
advance to the FDIC or the OFR for approval as required under the final orders approving the bank’s
charter and application for deposit insurance. The steep decline in the Florida real estate market during
this period factored significantly in the rapid deterioration of the bank’s ADC portfolio and, ultimately,
loan-related losses eroded capital. The bank’s efforts to diversify and shrink its portfolio in 2008 and
2009 to address supervisory concerns and increase capital ratios proved ineffective. The FDIC and the
OFR determined that the bank was no longer viable and closed the institution in October 2009.

The FDIC’s Supervision of Hillcrest

The FDIC, in conjunction with the OFR, provided ongoing supervisory oversight of Hillcrest consistent
with requirements for de novo institutions. Through its supervisory efforts, the FDIC and the OFR
identified key risks in Hillcrest’s operations and made recommendations to improve weak risk
management practices and address areas of concerns, including noted deviations from the bank’s original
business plan. Enforcement actions were taken in 2008 and 2009; however, Board and management
responses to those actions fell short and the financial condition of the bank became critically deficient.



                                   To view the full report, go to www.fdicig.gov
                                      Material Loss Review of Hillcrest Bank Florida,
   Executive Summary                  Naples, Florida

                                                                                     Report No. MLR-10-033
                                                                                                  May 2010

In retrospect, a more critical assessment of Hillcrest during 2007, accompanied by lower supervisory
ratings and/or an enforcement action, may have been prudent given the bank’s de novo status, the
composition of its loan portfolio, and weaknesses identified in its risk management practices. Such an
approach would have established a strong supervisory tenor from the onset of the bank’s operations and
may have (1) been a more effective means of communicating the significance of the risks the bank was
assuming and the seriousness of supervisory concerns related to the bank’s risk profile and (2) created a
more structured supervisory framework to monitor actions the Board and management were taking to
address deficiencies. We recognize that the assignment of supervisory ratings and the decisions regarding
the pursuit of an enforcement action are matters of judgment based on information known at the time. In
that regard, in fairness to the examiners involved, the depth of the economic decline in Florida that
factored significantly into Hillcrest’s demise was not foreseen in 2007.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. Hillcrest was unsuccessful in raising needed capital
and the bank was subsequently closed on October 23, 2009.

The FDIC has taken a number of actions to address issues discussed in this report based on lessons it has
learned from recent failures. For example, in 2009, the FDIC extended the de novo period in recognition
that unseasoned institutions may warrant stronger supervisory attention. The FDIC also recently
established procedures to better communicate and follow up on risks and deficiencies identified during
examinations. Further, the FDIC implemented a training program provided to the FDIC’s examination
workforce in order to emphasize the need for a more forward-looking approach to examination analysis
and ratings.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On April 30, 2010, the Director, Division
of Supervision and Consumer Protection (DSC), provided a written response to the draft report. DSC
reiterated the OIG’s conclusions regarding the causes of Hillcrest’s failure. With regard to our
assessment of the FDIC’s supervision of Hillcrest, DSC summarized key aspects of the supervisory
history presented in the report. Specifically, DSC stated that from 2007 to 2009, FDIC and OFR
examinations identified key risks in operations and made recommendations to improve weak risk
management practices. Further, in 2007, the FDIC noted concern about Hillcrest’s ADC exposure.
During the OFR’s August 2008 examination, Hillcrest’s weak management practices became evident,
resulting in a lower composite rating and the issuance of an enforcement action. DSC’s response also
highlighted the program changes for de novo institutions in 2009, including extension of the de novo
period from 3 to 7 years and emphasis on de novo business plans.




                                  To view the full report, go to www.fdicig.gov
                                  Contents
                                                                   Page
Background                                                           2

Causes of Failure and Material Loss                                  2
  ADC Loan Concentration That Deviated from the Business Plan        3
  Risk Management Practices                                          5

The FDIC’s Supervision of Hillcrest                                  8
  Supervisory History                                                8
  Supervisory Response Related to Key Risks                          9
  Implementation of PCA                                             13
  Supervisory Lessons Learned                                       14

Corporation Comments                                                15

Appendices
  1. Objectives, Scope, and Methodology                             16
  2. Glossary of Terms                                              18
  3. Acronyms                                                       20
  4. Corporation Comments                                           21

Tables
   1. Financial Information for Hillcrest, 2006 to 2009              2
   2. Hillcrest’s Examination History, 2006 to 2009                  9

Figures
   1. Composition of Hillcrest’s Loan Portfolio, 2006 to 2009        4
   2. Case-Shiller Home Price Index for Florida and Naples-Marco     5
      Island, Florida, 2000-2009
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           May 6, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of Hillcrest Bank Florida, Naples,
                                                Florida (Report No. MLR-10-033)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Hillcrest
Bank Florida (Hillcrest), Naples, Florida. The Florida Office of Financial Regulation
(OFR) closed the institution on October 23, 2009, and named the FDIC as receiver. On
November 6, 2009 the FDIC notified the OIG that Hillcrest’s total assets at closing were
$91.9 million and that the estimated loss to the Deposit Insurance Fund (DIF) was
$44.7 million. As of April 27, 2010, the estimated loss to the DIF had decreased to
$31.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Hillcrest’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2
of Hillcrest, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. This report presents our analysis of Hillcrest’s failure and the FDIC’s
efforts to ensure that the Board of Directors (Board) and management operated the
institution in a safe and sound manner. The report does not contain formal
recommendations. Instead, as major causes, trends, and common characteristics of
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
institution failures are identified in our material loss reviews, we will communicate those
to FDIC management for its consideration. As resources allow, we may also conduct
more in-depth reviews of specific aspects of the FDIC’s supervision program and make
recommendations as warranted. Appendix 1 contains details on our objectives, scope,
and methodology; Appendix 2 contains a glossary of terms; and Appendix 3 contains a
list of acronyms. Appendix 4 contains the Corporation’s comments on this report.



Background
Hillcrest was a de novo3 state-chartered nonmember bank that opened for business on
August 16, 2006 in Naples, Florida as a traditional full-service community bank. The
bank’s primary market included Collier and southern Lee counties. In addition to its
main office, Hillcrest had a full-service branch in Bonita Springs (north of Naples) and
four limited service branches located in retirement communities in and around its local
area and also on the east coast of Florida. The bank had no holding company but was
affiliated with another out-of-state bank through common ownership of its two principal
shareholders.4 Table 1 provides details on Hillcrest’s financial condition as of
September 30, 2009 and for the 3 preceding years.

Table 1: Financial Information for Hillcrest, 2006 to 2009
 Financial Measure
       ($000s)                 Sep-2009              Dec-2008              Dec-2007              Dec-2006
Total Assets                    $82,774              $104,563              $106,965               $81,572
Total Loans                     $72,359               $86,458               $80,509               $43,598
Total Deposits                  $83,254               $86,853               $87,681               $64,793
Time Deposits of $100           $26,311               $30,417               $33,969               $38,600
Million or More
Net Income (Loss)              ($14,885)              ($5,333)               ($556)               ($1,242)
Source: Uniform Bank Performance Reports (UBPR) for Hillcrest.



Causes of Failure and Material Loss
Hillcrest failed because it implemented a lending strategy in its first year of operation that
resulted in loan concentrations in commercial real estate (CRE), particularly acquisition,
development, and construction (ADC) lending, absent development of adequate risk
management practices. The bank’s lending strategy constituted a deviation from the
3
  Prior to August 2009, de novo banks referred to institutions that were in their first 3 years of operation.
On August 28, 2009, the FDIC extended the de novo period from 3 to 7 years in Financial Institution Letter
(FIL) 50-2009, entitled, Enhanced Supervisory Procedures for Newly Insured FDIC-Supervised Depository
Institutions. Hillcrest was considered a de novo institution during its entire existence.
4
  During the FDIC’s closing process, the FDIC Legal Division opined that the other bank was not subject to
the cross guarantee provisions of section 5 of the FDI Act, meaning, based on the structure of the
principals’ ownership, the other bank was not liable to the FDIC for any losses caused by the failure of
Hillcrest. As defined by Florida state law, Hillcrest was not considered to be a subsidiary or an affiliated
bank.


                                                     2
bank’s original business plan, and this change was not submitted in advance to the FDIC
or the OFR for approval as required under the final orders approving the bank’s charter
and application for deposit insurance. The steep decline in the Florida real estate market
during this period factored significantly in the rapid deterioration of the bank’s ADC
portfolio and, ultimately, loan-related losses eroded capital. The bank’s efforts to
diversify and shrink its portfolio in 2008 and 2009 to address supervisory concerns and
increase capital ratios proved ineffective. The FDIC and the OFR determined that the
bank was no longer viable and closed the institution in October 2009.

ADC Loan Concentration That Deviated from the Business Plan

According to the original business plan submitted as part of the chartering and deposit
application processes, Hillcrest anticipated a loan mix consisting of commercial and
industrial, commercial real estate, consumer, and residential construction loans.
However, both the OFR and the FDIC found that, from the beginning, the bank deviated
from its original plan as nearly all of Hillcrest’s loans were in real estate, including a
significant portion in ADC loans. According to the order approving deposit insurance,
Hillcrest was required to, among other things, operate within the parameters of the
business plan submitted to the FDIC. Furthermore, during the first 3 years of operations,
the bank was required to notify the FDIC of any major deviations or material change
from the plan 60 days before consummation of the change. The bank did not notify the
FDIC or the OFR of changes in advance as required.

Further, the heavy concentration in ADC loans reflected loan participations purchased
from the out-of-state bank in which the two principal shareholders were affiliated. The
original business plan referenced participations but did not reveal that the level of
participations would comprise over 50 percent of total loans or include large, out-of-area
ADC loan participations. In response to the OFR’s February 2007 examination findings,
the bank agreed to cease the purchase of loan participations. In addition, the bank
submitted a revised 3-year strategic plan on May 2, 2007 that addressed its planned
expansion into retirement facilities and described the level and type of loan participations
in its portfolio, and the FDIC reviewed and accepted that revised plan.

However, during its September 2007 examination, the FDIC concluded that the revised
business plan did not clearly address the level and type of lending Hillcrest had engaged
in and required the bank to submit a progress report detailing its plans to bring the bank
into compliance with the original plan or provide an amended business plan by
December 15, 2007. Hillcrest submitted a revised plan on December 14, 2007. The
FDIC reviewed the plan and provided a response to the bank on February 13, 2008,
indicating that it had no objections to the revision. The bank’s senior lender, who had
resigned in July 2007, was also replaced in February 2008. During 2008, Hillcrest ceased
making new loans and began to downsize in order to increase capital ratios.

As of December 31, 2007, Hillcrest’s ADC loans represented 66 percent of the loan
portfolio and, despite the bank’s plans and efforts to diversify, ADC loans accounted for




                                             3
nearly 60 percent of the loan portfolio as of August 2009.5 Further, according to
information provided to us by the Division of Resolutions and Receiverships (DRR), as
of August, 14, 2009, Hillcrest had nine purchased loan participations totaling
$24.2 million, representing approximately 31 percent of the loan portfolio. Although
these participations increased the bank’s risk profile, only two of the participations were
reported to be in non-accrual status as of August 2009. As discussed below, the bank’s
Florida-originated lending ultimately proved to be a greater source of loss to the bank.
Figure 1 illustrates the general composition and growth pattern of Hillcrest’s loan
portfolio from 2006 through 2009.

Figure 1: Composition of Hillcrest’s Loan Portfolio, 2006 to 2009



                                        $90   All Other Loans
                                                                                   $12
                                        $80   Other CRE Loans
                                                                   $12
    Gross Loans and Leases (Millions)




                                              ADC Loans
                                        $70                                        $20      $12
                                                                   $15
                                        $60
                                                                                            $19
                                        $50

                                        $40        $13

                                        $30        $7              $54             $55
                                                                                            $41
                                        $20
                                                   $23
                                        $10

                                         $0
                                               2006             2007            2008     2009
                                                                    Period Ended


Source: Call Reports for Hillcrest.

In December 2006, Federal banking regulatory agencies issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance) that reinforces existing regulations and guidelines for real estate lending
and safety and soundness.6 The Joint Guidance points out that there are substantial risks
posed by CRE concentrations, especially ADC concentrations. Such risks include
unanticipated earnings and capital volatility during a downturn in the real estate market.
The Joint Guidance reiterates that concentrations in CRE lending, coupled with weak
5
  Hillcrest also sold a number of participations. As of August 14, 2009, the general ledger indicated there
were 12 participations sold, totaling approximately $16.4 million.
6
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).


                                                                         4
loan underwriting and depressed CRE markets, contributed to significant credit losses in
the past. Figure 2 depicts an indexed snapshot of real estate trends for Florida and Naples
relative to Hillcrest opening and closing dates.

Figure 2: Case-Shiller Home Price Index* for Florida and Naples-Marco Island,
          Florida, 2000 to 2009




Source: FDIC’s Division of Insurance.
*Note: The Case-Shiller home price indices measure the residential housing market and track changes in
the value of the residential real estate market. Also, note Naples is a city in Collier County, Florida, located
at the southern end of Florida's Gulf Coast, bounded by Lee County, Florida to the northwest, and other
surrounding counties.


As the figure illustrates, Hillcrest opened as the real estate market was starting to decline.
Given that the majority of its ADC portfolio was centered in Florida, the bank was
particularly vulnerable when this real estate market collapsed, and by August 2008,
Hillcrest’s asset quality deteriorated to critically deficient as appraised values in its
lending areas plummeted.

Risk Management Practices

An institution’s Board is responsible for establishing appropriate risk limits, monitoring
exposure, and evaluating the effectiveness of the institution’s efforts to manage and
control risk. According to the Joint Guidance, strong risk management practices are an
important element of a sound CRE lending program, particularly when an institution has
a concentration in CRE loans.

In addition, FIL-22-2008, Managing Commercial Real Estate Concentrations in a
Challenging Environment, issued March 17, 2008, provides key risk management
processes for institutions with CRE concentrations, including maintaining prudent,


                                                        5
time-tested lending policies with a strong credit review and risk rating system to identify
deteriorating credit trends early and maintaining updated financial and analytical
information for borrowers. For example, institutions should emphasize global financial
analyses of obligors, which involves analyzing borrowers’ complete financial resources
and obligations. The guidance further states that inappropriately adding extra interest
reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as
delinquent.

As summarized in the 2009 examination report,7 Hillcrest’s Board failed to adequately
monitor the risk associated with the loan portfolio and implement sound underwriting and
credit risk management practices, which ultimately resulted in an elevated volume of
problem loans and credit losses.

Poor Underwriting and Credit Administration

During the bank’s short history, examiners identified weaknesses in Hillcrest’s
underwriting and credit administration practices, including the need for the Board and
senior management to:

       Fully address underwriting guidelines and practices in the loan policy.

       Establish standard minimum procedures for loan presentation reviews to ensure
        consistent analysis. Specifically, examiners recommended that underwriting
        procedures include global cash flow analyses that consider total debt outstanding
        with other banks and the assessment of borrowers’ outside repayment sources.
        Examiners reported that Hillcrest’s loan files did not adequately document the
        decision process and the capacity of the borrower to adequately service debt.

       Establish a loan diversification policy and set limits for real estate loans by type
        and geographic market.

       Establish procedures to make underwriting decisions that consider feasibility of
        the market; evaluate the marketability of the properties without take-out
        commitments; and analyze the market levels, trends, and exposure time.

       Establish formal requirements for the appropriate use of interest reserves.

       Establish guidelines for stress testing the portfolio under different interest rates,
        collateral values, and absorption scenarios.

In addition, the bank failed to conduct proper due diligence and implement prudent
underwriting of the loan participation credits. According to the FDIC’s Risk
Management Manual of Examination Policies, institutions purchasing participations must

7
  As indicated later in this report, the examination was completed but the examination report was never
issued to the bank because it was completed near the time the bank was closed.


                                                     6
make a thorough, independent evaluation of the transaction and risks involved before
committing any funds. The 2007 OFR examination reported that Hillcrest lacked the
personnel, depth, and resources to properly monitor, assess, and manage a large portfolio
of complex CRE/ADC loans outside its local market area.

Hillcrest was also cited in the OFR’s 2008 examination for being in violation and
contravention of regulatory requirements related to its lending activity, another indication
of weak risk management practices. The violations cited in the examination report
involved the bank’s failure to adhere to loan approval requirements outlined in Florida
statutes. The bank was also cited to be in contravention of a section of the Florida
Administrative Code pertaining to appraisals as well as the Interagency Appraisal and
Evaluation Guidelines (FIL-74-94 dated November 11, 1994). Further, the 2009
examination noted that Hillcrest was not in compliance with two of the continuing
conditions of the order approving the bank’s insurance application – capital ratios had
fallen below 8 percent as required by the order and the bank was not operating within the
parameters of its business plan.

Allowance for Loan and Lease Losses (ALLL)

The December 2006 Interagency Policy Statement on the Allowance for Loan and Lease
Losses (ALLL Policy Statement) reiterated key concepts and requirements related to
generally accepted accounting principles (GAAP)8 and existing supervisory guidance.
According to the ALLL Policy Statement, the ALLL represents one of the most
significant estimates in an institution’s financial statements and regulatory reports. An
appropriate ALLL covers estimated credit losses on individually evaluated loans that are
determined to be impaired as well as credit losses inherent in the remainder of the
portfolio.

Examiners generally found that Hillcrest’s ALLL methodology needed to be improved to
ensure that the bank was complying with the ALLL Policy Statement. Specifically, the
FDIC’s September 2007 examination report stated that Hillcrest’s ALLL was
appropriately funded but the bank applied a 1.2 percent reserve allocation to the entire
loan portfolio. The use of a blanket percentage allocation was considered inadequate. In
response to the examination finding, management stated that it performed additional
analysis, which considered qualitative factors to ensure the ALLL was appropriate, but
the analysis was not documented. Examiners advised Hillcrest that the ALLL
methodology, at a minimum, needed to address a number of items, including appropriate
qualitative factors such as changes to economic and market conditions.

In 2008, examiners noted that although the bank was trying to comply with ALLL
guidance, the bank was in contravention of the ALLL policy statement. Hillcrest’s
management was determining the amount of impairment on individual loans by applying
percentages based on the bank’s internal loan grading, but was not determining the credit


8
 Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies and
FAS No. 114, Accounting by Creditors for Impairment of a Loan.


                                                  7
losses inherent in the remainder of the portfolio as required by generally accepted
accounting principles.


The FDIC’s Supervision of Hillcrest
The FDIC, in conjunction with the OFR, provided ongoing supervisory oversight of
Hillcrest consistent with requirements for de novo institutions.9 Through its supervisory
efforts, the FDIC and the OFR identified key risks in Hillcrest’s operations and made
recommendations to improve weak risk management practices and address areas of
concerns, including noted deviations from the bank’s original business plan.
Enforcement actions were taken in 2008 and 2009; however, Board and management
responses to those actions fell short and the financial condition of the bank became
critically deficient.

In retrospect, a more critical assessment of Hillcrest during 2007, accompanied by lower
supervisory ratings and/or an enforcement action, may have been prudent given the
bank’s de novo status, the composition of its loan portfolio, and weaknesses identified in
its risk management practices. Such an approach would have established a strong
supervisory tenor from the onset of the bank’s operations and may have (1) been a more
effective means of communicating the significance of the risks the bank was assuming
and the seriousness of supervisory concerns related to the bank’s risk profile and
(2) created a more structured supervisory framework to monitor actions the Board and
management were taking to address deficiencies. We recognize that the assignment of
supervisory ratings and the decisions regarding the pursuit of an enforcement action are
matters of judgment based on information known at the time. In that regard, in fairness
to the examiners involved, the depth of the economic decline in Florida that factored
significantly into Hillcrest’s demise was not foreseen in 2007.

The FDIC has taken a number of actions to address issues discussed in this report based
on lessons it has learned from recent failures. For example, in 2009, the FDIC extended
the de novo period in recognition that unseasoned institutions may warrant stronger
supervisory attention. The FDIC also recently established procedures to better
communicate and follow up on risks and deficiencies identified during examinations.
Further, the FDIC implemented a training program provided to the FDIC’s examination
workforce in order to emphasize the need for a more forward-looking approach to
examination analysis and ratings.

Supervisory History

The FDIC completed key steps as required in the deposit insurance application approval
process, all of which take into consideration the evaluation of the seven factors included



9
 De novo institutions are subject to additional supervisory oversight and regulatory controls, including the
development and maintenance of a current business plan and increased examination frequency.


                                                     8
in section 6 of FDI Act.10 The pre-opening examination conducted by the OFR did not
indicate any concerns related to the institution’s risk management practices and
concluded that the institution met all of the requirements to open for business as a state-
chartered bank ready to service the public. The bank opened for business on August 16,
2006. Table 2 summarizes key information pertaining to pre-opening and onsite risk
management examinations conducted by the FDIC and the OFR, including the
(1) supervisory rating, (2) enforcement actions taken in response to concerns identified,
and (3) an indication of violations or contraventions of law or policy.

Table 2: Hillcrest’s Examination History, 2006 to 2009
                                                                                            Violation of Law
                                                                                            or Contravention
Examination       Examination                      Supervisory         Enforcement              of Policy
 Start Date        as of Date        Agency         Ratings***            Actions               Reported
08/09/2006        08/15/2006        OFR*           N/A               N/A                             N/A
02/20/2007        12/31/2006        OFR            132222/2          N/A                             N/A
09/24/2007        06/30/2007        FDIC           122322/2          N/A                             N/A
08/04/2008        06/30/2008        OFR            353523/4          Memorandum of                    
                                                                     Understanding
                                                                     (MOU)
07/20/2009        06/30/2009        FDIC**         555555/5          Cease and Desist                 
                                                                     Order (C&D)
Source: Reports of Examination (ROE) for Hillcrest, ViSION, and problem bank memorandum.
*This was the pre-opening examination to determine compliance with the OFR Final Order of Approval and
to confirm the bank’s readiness to open for business on August 16, 2006.
**The examination was completed but the ROE was never issued to the bank.
***Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

In addition to onsite examinations, the FDIC’s offsite monitoring program generally
consists of periodic contact with bank management to discuss current or emerging issues
and the use of various offsite monitoring tools, including the offsite review list, to
monitor institutions between examinations. In this case, FDIC officials contacted bank
officials to follow up on emerging issues or concerns.

Supervisory Response Related to Key Risks

In retrospect, given the examination findings and Hillcrest’s risk profile, a more critical
assessment and aggressive supervisory approach may have been prudent in 2007. Board
and management responses to enforcement actions taken in 2008 fell short, and by the

10
   The seven factors in section 6 of the FDI Act include: (1) the financial history and condition of the
depository institution, (2) the adequacy of the depository institution's capital structure, (3) the future
earnings prospects of the depository institution, (4) the general character and fitness of the management of
the depository institution, (5) the risk presented by such depository institution to the DIF, (6) the
convenience and needs of the community to be served by such depository institution, and
(7) whether the depository institution's corporate powers are consistent with the purposes of the Act.


                                                      9
time the formal enforcement action taken in 2009 became effective, the bank’s financial
condition had become critically deficient and it was closed.

2007 Supervisory Activities

As a de novo institution, Hillcrest was subject to two risk management examinations in
its first year of its operation. Specifically, the examination guidance requires a limited
scope examination to be conducted for newly-chartered and insured institutions within
the first 6 months of operation, and a full-scope examination within the first 12 months of
operation. In their respective 2007 examinations, the FDIC and the OFR identified a
number of risk management practices that needed to be addressed as well as Hillcrest’s
increased risk profile stemming from the bank’s deviations from its original business
plan. However, both examinations concluded that the bank’s overall condition was
satisfactory.

The OFR’s February 2007 examination found that management had complied with the
conditions contained in the state’s final orders approving the bank’s charter and deposit
insurance. However, the examination report stated that asset quality was less than
satisfactory and assigned a “3” rating because of the large volume of loan participations
and the high number of technical exceptions related to the participation loan
documentation. In response to the examination, a senior bank official stated that the bank
would not purchase additional participations in the near term and would work with
regulators to determine an appropriate level of loan participations. The OFR’s letter
transmitting the examination report to the bank requested that Hillcrest’s business plan be
amended to address the level of loan participations purchased and the bank’s expansion
into the Florida east coast market. As indicated earlier in this report, the bank submitted
a revised plan in May 2007.

As part of the FDIC’s broader supervisory efforts to monitor institutions with significant
involvement in construction and subprime lending, the FDIC contacted senior
management officials at Hillcrest in June 2007 to discuss the bank's ADC exposure,
including ADC loans participations. Based on March 31, 2007 Call Report data, the
bank’s exposure to ADC lending represented approximately 246 percent of Tier 1
Capital. FDIC officials determined through discussions with bank officials that the
bank’s ADC lending was primarily related to commercial construction loans acquired
through participations but noted that the bank was no longer purchasing participations
and had established limits with respect to its participation exposure. Bank officials
acknowledged that the most significant risk it faced related to the softening of real estate
market conditions in southwest Florida and viewed the demand for funding of office and
retail construction in Naples to be strong. Overall, the bank anticipated that construction
lending would remain a profitable segment of the bank’s loan portfolio.

The FDIC performed the second onsite examination in September 2007. Pre-planning
efforts targeted key areas, including asset quality, earnings, and management. The
overall condition of the bank was again determined to be satisfactory. The FDIC’s
examination report stated that asset quality and management components were generally
satisfactory despite the fact that risk management policies and practices were determined


                                             10
to be inadequate. The examination report outlined a number of elements that needed to
be addressed, as described earlier in this report. The level of adversely classified assets at
19.69 percent was considered both moderate and manageable.

The FDIC assigned a “2” to the asset quality component rating, which indicates
satisfactory asset quality and credit administration practices, the level and severity of
classifications, and other weaknesses warrant a limited level of supervisory concern and
risk exposure is commensurate with capital. A “3” rating is assigned when asset quality
or credit administration practices are less than satisfactory, trends may be stable or
indicate deterioration in asset quality or an increase in risk exposure, and the level and
severity of classified assets, other weaknesses, and risks require an elevated level of
supervisory concern. In our view, assigning asset quality a “3” rating would have been
consistent with the 2007 examination findings and communicated a stronger degree of
supervisory concern. FDIC officials commented that a lower rating may not have been
helpful in ensuring the bank’s viability given that the loans that proved problematic had
already been made and the ensuing market decline was rapid and steep.

The FDIC also deemed the performance of senior management and the Board to be
satisfactory and assigned the management component a “2” rating, which indicates
satisfactory management and Board performance and risk management practices relative
to the institution’s size, complexity, and risk profile. Minor weaknesses may exist, but
are not material to the safety and soundness of the institution and are being addressed. In
general, significant risks and problems are effectively identified, measured, monitored,
and controlled. However, the examination report noted that certain aspects of the current
business plan were in contravention of the order approving deposit insurance. Further,
consistent with comments made in the assessment of asset quality, examiners reported
that Board and management oversight of the credit risk management practices needed
enhancement, made recommendations to improve the loan policy and ALLL
methodology, and concluded that management should be able to correct the deficiencies
in the normal course of business.

A “3” management rating indicates management and Board performance need
improvement or risk management practices are less than satisfactory given the nature of
the institution’s activities. The capabilities of management and the Board may be
insufficient for the type, size, or condition of the institution. Problems and significant
risks may be inadequately identified, measured, monitored, and controlled. As with the
asset quality rating, the 2007 examination findings related to management appear more
consistent with the characteristics of a “3” rating than a “2”.

During this examination, the bank’s earnings performance was found to be marginal but
the return on average assets ratio exceeded its peer ratio11 and exhibited a positive trend,
and actual performance exceeded original application projections for the first 12 months

11
   Institutions are assigned to 1 to 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. De novo institutions are compared to
other banks that opened in the same period for 5 years. Accordingly, Hillcrest’s peer group included
institutions established in 2006 with assets less than $750 million.


                                                    11
of operations. The bank’s capital level was determined to be sufficient to support the
continued growth of the bank.

In their respective 2007 examinations, the OFR and the FDIC both assigned Hillcrest a
composite “2” CAMELS rating, which indicates that an institution is considered to be
fundamentally sound and only moderate weaknesses are present and are well within the
Board’s and management’s capabilities and willingness to correct. Further, overall risk
management practices are satisfactory relative to the institution’s size, complexity, and
risk profile.

2008 Supervisory Activities

The OFR’s August 2008 examination found the bank’s overall condition to be marginal
and a composite “4” CAMELS rating was assigned to reflect the level of deterioration.
Specifically, total adversely classified assets represented approximately 128 percent of
Tier 1 Capital and the deterioration in asset quality was attributed to the bank’s high
concentration in CRE loans coupled with the declining real estate market. Further, the
examination report stated that management performance and Board oversight needed
improvement and noted significant turnover among senior bank management. Given the
condition of the bank, the OFR determined that an enforcement action to correct the
bank's deficiencies was needed, and, in conjunction with the FDIC, issued an MOU that
became effective on November 7, 2008. Given the bank’s condition, a C&D could have
been pursued; however, OFR officials concluded that an MOU would be sufficient based
on improvement noted under the new management team and corrective measures that had
been put in place during the examination. The MOU included 19 provisions primarily
related to:

      asset quality and lending,
      capital and earnings,
      management, and
      violations and contraventions cited.

The MOU also required the Board to provide written progress reports within 30 days of
each calendar quarter to the OFR and the FDIC. In response to the MOU, the Hillcrest
principals injected an additional $2.5 million of capital into the bank in December 2008.
Both the state and federal supervisors viewed this action as evidence that Hillcrest was
responsive to the capital demands of the MOU and that the owners had the resources to
fund the institution through troubled times. This capital injection, along with the
institution’s response to the MOU, was documented in correspondence and quarterly
MOU progress reports submitted to the OFR and the FDIC.

Hillcrest was designated a problem institution in November 2008 and also appeared on
the FDIC’s offsite review list in the third quarter of 2008 due to the high volume of
nonaccrual loans, elevated loan loss provisions, weak earnings performance, and a large
volume of CRE loans. The FDIC concluded that further action was not warranted
because of ongoing supervisory efforts resulting from the OFR’s onsite examination.



                                              12
The offsite analysis also concluded that concerns were somewhat mitigated by the bank’s
new management team.

2009 Supervisory Activities

The July 2009 FDIC examination found that the financial condition of the bank had
become critically deficient and that the bank was no longer viable. Approximately
50 percent of the bank’s loan portfolio was adversely classified and, despite a mandate by
the OFR in July 2009 to raise additional capital, the Board failed to do so. Overall, the
FDIC examination found the MOU had not been effective in correcting the bank’s
problems as management had not addressed a number of provisions. The FDIC noted
that many of the bank’s loan problems originated under prior management and the
Board’s oversight of those individuals was lacking. Further, the FDIC concluded that the
new management team lacked the experience necessary to address the bank’s problems
and restore the viability of the bank. In addition, since the OFR 2008 examination, three
Board members had resigned and only one had been replaced. In 2009, the FDIC
assigned Hillcrest a composite “5” CAMELS rating, reaffirmed its status as a problem
bank, and initiated the process for a C&D to be put in place. Although the bank
stipulated to the C&D in September 2009, the OFR closed Hillcrest on October 23, 2009
and the FDIC terminated the C&D on October 28, 2009.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary actions pertaining to all institutions. The section requires
regulators to take progressively more severe actions, known as “prompt corrective
actions,” as an institution’s capital levels deteriorate. The purpose of section 38 is to
resolve problems of insured depository institutions at the least possible long-term cost to
the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines the
capital measures used in determining the supervisory actions that will be taken pursuant
to section 38 for FDIC-supervised institutions. Part 325 also establishes procedures for
the submission and review of capital restoration plans and for the issuance of directives
and orders pursuant to section 38.

Based on the supervisory actions taken with respect to Hillcrest, the FDIC properly
implemented applicable PCA provisions of section 38. Notably, as a condition of
approval for its deposit insurance application, the bank had to maintain a certain capital
ratio for the first 3 years of its operations and did so until December 2008. Further, the
2008 MOU required that the bank submit a capital plan with 60 days and maintain the
following ratios, which are higher than those for the Well Capitalized thresholds under
section 38:

      Tier 1 Capital of no less than 8 percent;
      Tier 1 Risk-Based Capital Ratio at no less than 10 percent, and
      Total Risk-Based Capital at no less than 12 percent.




                                             13
The MOU required the same Tier 1 Capital levels as the deposit insurance order. Further,
the MOU included a provision prohibiting the declaration of any dividends or any other
capital distributions without prior regulatory approvals.

The bank developed a capital plan as required under the MOU and did not declare or pay
any dividends; however, due to the continuous deterioration of asset quality and
inadequate earnings, all capital ratios fell below the required provisions as of June 30,
2009. On June 25, 2009, the FDIC appropriately notified the bank of its capital position
and corresponding requirements when it fell to Adequately Capitalized. Subsequently, on
July 28, 2009, the FDIC notified Hillcrest that it was Critically Undercapitalized. In
accordance with PCA provisions, the FDIC required the bank’s Board to file a written
capital restoration plan by August 28, 2009. The bank submitted a capital restoration
plan as required but the FDIC determined it to be unacceptable. In the interim, in a letter
dated July 14, 2009, the OFR mandated that the Board increase capital by July 31, 2009
in an amount sufficient to increase the Tier 1 Capital ratio to 6 percent. Ultimately, the
Board was unsuccessful in raising additional capital and the bank was closed on October
23, 2009. Hillcrest had submitted an application for the Troubled Asset Relief Program
on October 24, 2008 for funding of $3 million, however, withdrew the application on
February 3, 2009.

Supervisory Lessons Learned

In hindsight, risk factors were present in 2007 that could have triggered a stronger
supervisory response in terms of assigning a lower supervisory rating or pursuing some
type of enforcement action. In our view, the following factors could have supported
lower asset quality and management ratings, a lower CAMELS composite rating, and/or a
pursuit of a supervisory action: (1) Hillcrest’s de novo status and noted deviations from
its original business plan, (2) the assessment in the September 2007 examination that risk
management policies and practices for the credit function were not adequate, and (3) the
recognition of the bank’s elevated risk profile presented by its ADC lending in a
weakening real estate market. FDIC officials explained that, at the time, consideration
was given to the Board and management’s overall experience and general willingness to
address concerns, and the expectation that the principals would provide additional capital
as necessary.

The FDIC has taken a number of actions to address issues discussed in this report based
on lessons it has learned from recent failures. Specifically, in recognition of the elevated
risk that newly-chartered institutions pose to the DIF, the FDIC issued FIL-50-2009,
entitled Enhanced Supervisory Procedures For Newly Insured FDIC-Supervised
Depository Institutions, dated August 28, 2009, which extends the de novo period for
newly chartered institutions from 3 to 7 years for purposes of onsite examinations, capital
maintenance, and other requirements. In addition, the updated guidance requires that de
novo institutions obtain prior approval from the FDIC before making material changes in
their business plans.

Further, the FDIC issued guidance in January 2010 that defines a standard approach for
communicating matters requiring bank Board attention (e.g., examiner concerns and


                                            14
recommendations) in examination reports. The guidance states that case managers
should request a response from the institution regarding the action that it will take to
mitigate the risks identified during the examination and correct noted deficiencies. This
approach provides examiners with another tool to hold Board and management
accountable for improved performance and should also facilitate effective supervisory
follow-up.

Finally, the FDIC recently completed a training initiative for its entire supervisory
workforce that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the need for examiners to consider management
practices as well as the current financial performance or trends in assigning ratings as
allowable under existing examination guidance. The training also covered methods for
communicating weak management practices to the Board and management and tools
being developed to monitor corrective actions.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
April 30, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the causes of Hillcrest’s failure. With regard to our
assessment of the FDIC’s supervision of Hillcrest, DSC summarized key aspects of the
supervisory history presented in the report. Specifically, DSC stated that from 2007 to
2009, FDIC and OFR examinations identified key risks in operations and made
recommendations to improve weak risk management practices. Further, in 2007, the
FDIC noted concern about Hillcrest’s ADC exposure. During the OFR’s August 2008
examination, Hillcrest’s weak management practices became evident, resulting in a lower
composite rating and the issuance of an enforcement action. DSC’s response also
highlighted the program changes for de novo institutions in 2009, including extension of
the de novo period from 3 to 7 years and emphasis on de novo business plans.




                                            15
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from January 2010 to May 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Hillcrest’s operations from 2006 until its
failure on October 23, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by FDIC and OFR examiners from 2006
         to 2009.

        Reviewed the following:

              Bank data and correspondence maintained at DSC’s Sunrise, Florida Field
               Office, and Kansas City, Missouri Regional Office.

              Documents prepared by DRR and DSC relating to the bank’s closure. We
               also reviewed available loan trial balances maintained by DRR for
               information that would provide insight into the bank's failure.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.




                                             16
                                                                               Appendix 1

                      Objectives, Scope, and Methodology

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., and the Kansas City Regional Office
               and Sunrise, Florida Field Office.

              DRR officials at the Washington Headquarters and the Jacksonville, Florida
               Field Office.

              FDIC examiners from the Sunrise, Florida Field Office who participated in
               examinations or reviews of examinations of Hillcrest.

              OFR officials to discuss the state's supervision of the bank.

We performed the audit work at the OIG’s office in Arlington, Virginia and OFR’s office
in Tallahassee, Florida.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand Hillcrest’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.



                                               17
                                                                                  Appendix 2
                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards
                    of directors are responsible for ensuring that their institutions have
                    controls in place to consistently determine the allowance in accordance
                    with the institutions' stated policies and procedures, generally accepted
                    accounting principles, and supervisory guidance.
Call Report         The report filed by a bank pursuant to 12 United States Code (U.S.C.)
                    1817(a)(1), which requires each insured State nonmember bank and each
                    foreign bank having an insured branch which is not a Federal branch to
                    make to the Corporation reports of condition in a form that shall contain
                    such information as the Board of Directors may require. These reports
                    are used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.

De novo Bank        Prior to the issuance of FIL-50-2009 on August 28, 2009, and for the
                    purposes of FDIC-supervised institutions, this term referred to an
                    institution within its first 3 years of operation. FIL-50-2009 changed the
                    de novo period for newly-chartered FDIC-supervised institutions from
                    3 years to 7 years. This FIL does not apply to de novo bank subsidiaries
                    of “eligible holding companies”, i.e., those with $150 million in
                    consolidated assets, that are 2 rated, and with at least 75 percent of
                    consolidated depository institution assets comprised of eligible
                    depository institutions. Under the new de novo period, institutions must
                    undergo a limited-scope examination within the first 6 months of
                    operation, and a full-scope examination within the first 12 months of
                    operation. Subsequent to the first examination, and through the 7th year
                    of operation, institutions remain on a 12-month examination cycle.
                    Extended examination intervals (i.e., 18-month intervals) do not apply
                    during the de novo period.




                                             18
                                                                                 Appendix 2
                               Glossary of Terms

Term                Definition
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3”.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

Tier 1 (Core)       In general, this term is defined in Part 325 of the FDIC Rules and
Capital             Regulations, 12 C.F.R. section 325.2(v), as
                    The sum of:
                    • Common stockholder’s equity (common stock and related surplus,
                    undivided profits, disclosed capital reserves, foreign currency translation
                    adjustments, less net unrealized losses on available-for-sale securities
                    with readily determinable market values);
                    • Non-cumulative perpetual preferred stock; and
                    • Minority interest in consolidated subsidiaries;
                    Minus:
                    • Certain intangible assets;
                    • Identified losses;
                    • Investments in financial subsidiaries subject to section 12 C.F.R.
                      part 362; and
                    • Deferred tax assets in excess of the limit set forth in section 325.5(g).


Troubled Asset      TARP is a program of the United States Department of the Treasury to
Relief Program      purchase assets and equity from financial institutions to strengthen the
(TARP)              financial sector.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Reports of Condition and Income submitted by banks.




                                            19
                                                           Appendix 3
                        Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FIL      Financial Institution Letter
MOU      Memorandum of Understanding
OFR      Florida Office of Financial Regulation
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                              20
                                                                                       Appendix 4
                                    Corporation Comments



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                          April 30, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Hillcrest Bank Florida,
                  Naples, FL (Assignment No. 2010-012)

Pursuant to Section 38(k) of the Federal Deposit Insurance act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of
Hillcrest Bank Florida (Hillcrest), Naples, Florida, which failed on October 23, 2009. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to the
OIG’s Draft Report (Report) received on April 20, 2010.

The Report concludes that Hillcrest failed due to the Board of Directors’ (Board) and
management’s lending strategy concentrated in commercial real estate (CRE) loans, particularly
acquisition, development and construction (ADC) loans, coupled with inadequate risk management
practices. Hillcrest’s strategy, which deviated from the original business plan, did not have
approval from the FDIC and the Florida Office of Financial Regulation’s (OFR). As of December
31, 2007, Hillcrest’s ADC loan portfolio represented 67 percent of the total loan portfolio. Hillcrest
opened as the Florida real estate market began a steep decline, leaving Hillcrest vulnerable when
the real estate market collapsed.

From 2007 to 2009, FDIC and OFR examinations identified key risks in operations and made
recommendations to improve weak risk management practices. In 2007, the FDIC noted Hillcrest’s
ADC exposure, including the purchased loan participations, and expressed concern regarding the
heightened risk posture. During the August 2008 examination, Hillcrest’s weak management
practices became evident in the significant deterioration in Hillcrest’s overall condition resulting in
a composite rating of “4” being assigned. Given the condition of Hillcrest, the OFR in conjunction
with the FDIC issued an enforcement action that became effective in November 2008.

In recognition that stringent supervisory attention is necessary for de novo institutions, DSC has
extended its supervisory program so that these institutions receive a full scope examination every
year for seven years, as opposed to three years. De novo business plans are receiving careful
analysis prior to an institution’s opening and being closely monitored against approved financial
projections throughout the seven year period. A Financial Institution Letter issued in August 2009
describes the program changes for de novo institutions and warns that changes in business plans
undertaken without required prior notice may subject an institution or its insiders to civil money
penalties.

Thank you for the opportunity to review and comment on the Report.




                                                  21
